<html>
<title> - OFFICE OF NATIONAL DRUG CONTROL POLICY: REAUTHORIZATION IN THE 115TH CONGRESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







 OFFICE OF NATIONAL DRUG CONTROL POLICY: REAUTHORIZATION IN THE 115TH 
                                CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________

                           Serial No. 115-35

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-603 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez,California
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna General Counsel
                          Mary Doocy, Counsel
                 Sarah Vance, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2017....................................     1

                               WITNESSES

Mr. Richard Baum, Acting Director, Office of National Drug 
  Control Policy
    Oral Statement...............................................     5
    Written Statement............................................     8
Ms. Diana Maurer, Director of Justice and Law Enforcement Issues, 
  U.S. Government Accountability Office
    Oral Statement...............................................    27
    Written Statement............................................    29
Keith Humphreys, Ph.D., Professor of Psychiatry and Behavioral 
  Sciences, Stanford University
    Oral Statement...............................................    46
    Written Statement............................................    48
Mr. Don Flattery, Addiction Policy Advocate and Impacted Parent
    Oral Statement...............................................    51
    Written Statement............................................    54

                                APPENDIX

 Letter of May 16, 2017, to the Office of Management and Budget, 
  submitted by Ms. Norton........................................    82

 
                    OFFICE OF NATIONAL DRUG CONTROL 
             POLICY: REAUTHORIZATION IN THE 115TH CONGRESS

                              ----------                              


                        Wednesday, July 26, 2017

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:41 a.m., in Room 
1100, Longworth House Office Building, Hon. Trey Gowdy 
[chairman of the committee] presiding.
    Present: Representatives Gowdy, Jordan, DesJarlais, Massie, 
Meadows, Ross, Walker, Blum, Hice, Russell, Grothman, Comer, 
Gianforte, Norton, Clay, Lynch, Connolly, Watson Coleman, 
Plaskett, Demings, Krishnamoorthi, Welch, and DeSaulnier.
    Chairman Gowdy. The Committee on Oversight and Government 
Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time. Before Mr. Connolly and I give our opening 
statements, I do want to thank everyone, our guests, our 
panelists, those in the audience, the members and staff, and 
everyone, for how accommodating you were this morning. We had 
an unforeseen contingency that arose in our normal hearing 
room. So thank you for being so understanding.
    Over the past 2 decades, illicit drug use has emerged as a 
public health and safety crisis, with overdoses becoming the 
leading cause of injury or death in the United States. Opioids, 
specifically heroin and prescription pain relievers, are the 
cause of most overdose deaths in the United States, with the 
death rate more than doubling since the year 2000.
    In South Carolina, which is where I'm from, at least 95 
people died from heroin in 2015, which is almost twice as many 
as the previous year. And more than 560 died from the abuse of 
prescription opioids over the same period of time. The epidemic 
is growing and lives are at stake, literally. It is imperative 
our Nation maintain a strong coordinated effort across the 
Federal Government to combat drug abuse from design, 
manufacturing, distribution, prescription, and consumption.
    In 1988, Congress established the Office of National Drug 
Control Policy as part of the Anti-Drug Abuse Act to coordinate 
drug programs across the Federal Government, advise the 
administration on national and international drug control 
policies, and create and oversee the National Drug Control 
Budget. ONDCP is uniquely equipped to address what role the 
Federal Government can play in determining what kinds of 
clinical, social, welfare, and economic programs could impact 
and reverse drug abuse problems in our country.
    ONDCP was last authorized in 2006. The authorization lapsed 
in 2010, but the office has continued to receive appropriations 
each year. In December 2015, this committee held a hearing to 
discuss various proposals for reauthorization. We heard from 
the then director who testified combatting the abuse of 
prescription drugs was a top priority for the agency. However, 
since then, ONDCP has failed to produce a formal National Drug 
Control Strategy and a National Drug Control Budget, which is 
supposed to be released no later than February 1 each year.
    In the meantime, deaths due to opioid overdoses have only 
increased in the U.S. in 2016. No office is perfect. God knows 
Congress certainly is not, but it is our responsibility, 
nonetheless, to see that deadlines are met, particularly 
statutory deadlines, resources are well spent, and the 
leadership that can be provided nationally is being provided. 
There is a prevention aspect, a treatment aspect, an education 
aspect, an enforcement aspect, a punishment aspect, and an 
oversight aspect, the Federal Government has long occupied a 
space as it relates to both the illicit use of legal drugs and 
the use of illegal drugs.
    Today, we will have an opportunity to consider options for 
reauthorizing ONDCP and learn about how this agency can work 
for the goal of reducing and ultimately eliminating our 
Nation's opioid crisis. We will also examine how ONDCP can help 
mitigate the significant harm communities across America have 
felt as a result of our Nation's opioid crisis.
    There are many areas worthy of exploration today, and we 
thank all of our witnesses for appearing before the committee. 
We look forward to your testimony as we consider next steps for 
reauthorization.
    And with that, I would recognize my friend from Virginia.
    Mr. Connolly. I thank the chair, and I want to thank him 
personally for having this hearing. I also want to thank him 
personally for his absolute willingness to accommodate our 
witnesses and to hear the case for why we felt, especially Mr. 
Flattery being added, really would add a dimension of a 
personal story that Mr. Flattery has courageously been willing 
to share. And I just thank my friend from South Carolina.
    And this is an area where we can find common ground, where 
bipartisan cooperation must occur, and I know the chairman is 
committed to doing it, as am I.
    We're in the midst of a national public health emergency. 
The opioid epidemic has taken thousands, tens of thousands of 
lives across America, and unfortunately, shows no signs of 
ending. Every day, every day, 91 Americans die from an opioid 
overdose. This epidemic doesn't care where you live or what 
political party you belong to. The crisis has touched every 
corner of our Nation.
    Where I come from, Northern Virginia, is no exception. 
Fairfax County, which I chaired for 5 years, reported more than 
100 drug-related deaths last year. Prince William County, the 
other county I represent, reported 52. These are astronomical 
numbers by our normal standards.
    Today, we have on our panel Don Flattery, a father from 
Fairfax County, and his wife has joined him here today too. His 
son, their son, Kevin, tragically lost his life to opioid 
overdose 2 years ago--3 years ago. Kevin was a graduate of the 
University of Virginia. He aspired to a career in film making, 
but he became addicted to OxyContin because of a medical 
prescription and a particular medical condition, and he died at 
the age of 26.
    Mr. Flattery has been an outspoken advocate for the need to 
address this crisis, and we all welcome his testimony here 
today.
    Every day, people across the country die from drug 
addiction. Families are torn apart. Americans are suffering. 
The crisis cannot wait. As Members of Congress, we've got to do 
everything we can to assist and ameliorate and reverse this 
crisis. Unfortunately, we're not sensing that same sense of 
urgency from the administration. On the campaign trail, 
President Trump repeatedly promised action. He said, and I 
quote: We're going to help. The people that are seriously 
addicted, we're going to help those people, unquote.
    But we're 6 months into the administration and the 
President has still not appointed a drug czar to lead the 
Office of National Drug Control Policy, nor has the 
administration produced a National Drug Control Strategy. 
Instead, what the President has done is propose cutting the 
programs that are already working. His proposed budget would 
cut $370 million to the Substance Abuse and Mental Health 
Services Administration, which provides grants for opioid 
overdose drugs, mental health, and prevention programs. In the 
midst of a national emergency, we cannot accept that.
    The President's efforts to repeal the Affordable Care Act 
also would have devastating effects on Americans suffering from 
drug addiction. The latest effort to repeal the ACA would take 
health insurance away from 2.8 million people with substance 
abuse disorders. Let me repeat that: 2.8 million. Congress must 
not let that happen. Additionally, repeal of the Affordable 
Care Act could also make it difficult for individuals with 
substance use disorders to find the help they need. Legislation 
repealing the bill would allow States to waive the ACA 
requirement that mental health and substance abuse treatment 
are part of the essential health services. This would leave 
many of those seeking help without insurance coverage on those 
areas for the very treatment they desperately need.
    We're here today to discuss reauthorization of the Office 
of National Drug Control Policy. This office plays a critical 
role in coordinating the Federal response to our Nation's drug 
epidemic. The office manages a budget of more than $370 million 
and coordinates the related activities of 16 different Federal 
departments and agencies.
    ONDCP also administers two Federal grant programs. 
Communities in my district, for example, have been fortunate to 
receive assistance for what's called the High Intensity Drug 
Trafficking Area Program, which provides grants to localities 
and States and Tribal areas to counter drug trafficking 
activities.
    In 2010, we saw a shift to emphasizing public health based 
services within the National Drug Control Strategy. I look 
forward to hearing more about the importance of a comprehensive 
approach to this challenge. Prevention and treatment are 
important tools working together, as the chairman suggested, in 
how we approach this. What is also important is ensuring that 
any national drug control strategy is based on empirical 
evidence and one that prioritizes results over prior beliefs or 
ideology. Evidence should always guide public policy, 
particularly when addressing matters of public health and 
safety.
    We've witnessed the perils of failing to follow that 
prescription in our marijuana policies, and cannot afford to 
repeat just costly mistakes. This committee held a number of 
hearings on that topic in the last several years, and each time 
I noted we have no empirical evidence that justifies marijuana 
as classified a Schedule I drug. In fact, the U.S. National 
Institute on Drug Abuse, NIDA, which for years was the sole 
Federal entity that controlled access to the Federal 
Government's lone research supplier of marijuana, was unwilling 
to fund or conduct any Federal research into the question of 
whether marijuana might have positive benefits.
    This lack of empirical evidence to support our policy has 
lead us down a dark path, wherein our national drug policy has 
provided cover for arresting all too many minority Americans 
for nonviolent offenses at rates up to eight times those of 
White Americans, and filling our prisons beyond maximum 
capacity, scarring them and their families, often for life. 
We've got to rethink that approach, and it's got to be 
empirical based.
    I want to thank our panelists for being here today, Mr. 
Chairman, for their contributions to the Office of National 
Drug Control Policy and their personal contributions to this 
dialogue. And I want to reiterate my commitment to cooperate 
with you, Mr. Chairman, and our mutual staffs to make sure that 
we are aggressively addressing this critical issue that is now 
afflicting our country.
    Thank you so much. I yield back.
    Chairman Gowdy. The gentleman from Virginia yields back.
    We'll hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    I'm going to recognize our witnesses. I will recognize you 
from my right to left and then introduce you that way and then 
recognize you for your opening statements. I would tell all the 
witnesses, your opening statement is part of the record. I am 
sure that my colleagues have read it. So to the extent you can, 
keep your opening statement within 5 minutes so the members can 
have an active dialogue with you.
    Our first witness is Mr. Richard Baum, Acting Director of 
the Office of National Drug Control Policy. Next, we have Ms. 
Diana Maurer, Director of Justice and Law Enforcement Issues at 
the Government Accountability Office. We have Dr. Humphreys, 
who is a professor of psychiatry and behavioral sciences at 
Stanford University. And Mr. Don Flattery, who is an addiction 
policy advocate and a parent who has been impacted by today's 
subject matter.
    We want to welcome all of you, and thank you for being 
here. Pursuant to committee rules, all witnesses are to be 
sworn in before they testify. So I would ask you to please rise 
and lift your right hand.
    Do you solemnly swear the testimony you're about to give is 
to be the truth, the whole truth, and nothing but the truth, so 
help you God? 
    May the record reflect all the witnesses answered in the 
affirmative. You may sit down.
    With that, we will recognize Director Baum.

                       WITNESS STATEMENTS

                   STATEMENT OF RICHARD BAUM

    Mr. Baum. Chairman Gowdy, Ranking Member Connolly, and 
members of the committee, thank you for inviting me to appear 
before you today to discuss the activities of the Office of 
National Drug Control Policy.
    Mr. Connolly. Is your mic on?
    Mr. Baum. How's that? Is that better?
    Mr. Connolly. I think it just might be old age on our 
behalf.
    Mr. Baum. Do I need to get real close in there?
    Mr. Connolly. That's good.
    Chairman Gowdy. That's good.
    Mr. Baum. All right. I'm going to start over. Can you 
restart the clock for me?
    Chairman Gowdy, Ranking Member Connolly, and members of the 
committee, thank you for inviting me to appear before you today 
to discuss the activities of the Office of National Drug 
Control Policy. It's a tremendous honor for me to be here and 
to serve as acting director of the agency where I've worked for 
two decades.
    At ONDCP, we have a dedicated team of policy experts who 
are working to address the opioid crisis and the full range of 
drug threats our country faces. Having the strong support of 
the President, his administration, and Congress, particularly, 
this committee, means a great deal to us.
    Given the state of this crisis, reauthorizing the office 
charged with responding to it is more important than ever. 
Thank you for taking this on. We're grateful.
    As you are all aware, we're in the midst of the worst drug 
epidemic in U.S. history. In 2015, we lost more than 52,000 
people to drug overdose, including more than 33,000 to 
overdoses involving opioids. The opioid epidemic began with the 
overprescribing of prescription drugs and has evolved to 
include heroin, and increasingly, illicit fentanyl.
    In my time as acting director, I've met with parents who 
have lost children, visited communities hit hard by this 
epidemic. When I was in Johnstown, Pennsylvania, students at 
the University of Pittsburgh, Johnstown, had just found out 
that a star on the wrestling team had died of an overdose 
involving fentanyl. It's heartbreaking to hear the stories of 
lost lives, and we know these are stories you've heard in your 
districts and all over the country.
    Most lethal drugs are not made in the U.S., and ONDCP works 
with Federal and international partners to improve 
international drug control and dismantle the organizations that 
traffic these deadly drugs into our communities. Beyond 
opioids, we also face a rapidly growing threat from cocaine, as 
well as serious threats from methamphetamine, synthetic drugs, 
and marijuana. I look forward to discussing these specific drug 
threats in more detail in the Q&A.
    ONDCP serves as the lead drug control agency and advisory 
to the President on drug issues. Our activities include policy 
development, coordination, and drug budget oversight, as well 
as targeted grant funding. Our position within the White House 
provides a platform to build support for proven strategies to 
address quickly evolving drug threats.
    ONDCP strongly supports a comprehensive policy approach to 
address all aspects of the drug problem, supply and demand. 
Reducing the drug supply is critical to our overall efforts. 
The U.S. must use every tool available, including working with 
partner nations on drug crop eradication, land and sea 
interdiction, and destroying the criminal networks which bring 
these substances into our country and smuggle illicit proceeds 
out. Domestic law enforcement, including State and local 
agencies, play a critical role in reducing drug availability 
and building cases against trafficking groups.
    ONDCP also plays a critical role in promoting the science 
of addiction and evidence-based treatment and breaking the 
stigma surrounding substance abuse so people will be more 
likely to seek treatment and to achieve and maintain lifetime 
recovery. Prevention is a vital component of addressing drug 
abuse in this country. I've, therefore, made it a priority to 
reinvigorate a national prevention effort to engage youth in 
schools and online. This is a critical component for preventing 
drug use from beginning in the first place.
    ONDCP is also focused on supporting ways for the criminal 
justice system to better address addiction within its 
populations. For many people, engagement with the law is the 
first opportunity to access treatment services. Whether through 
pretrial or prearrest diversion to treatment via drug courts or 
through treatment within correctional settings, it's better for 
all of us that those who need treatment receive it.
    As you know, ONDCP writes the President's National Drug 
Control Strategy, which provides a comprehensive and science-
based national approach to reducing the use of illicit drugs 
and their consequences. This strategy is guided by input from 
Members of Congress and other stakeholders. The Trump 
administration envisions an action-oriented strategy, and our 
efforts to prepare the President's inaugural strategy are 
underway. And I'm happy to get more into this in the Q&A.
    One of our greatest strengths is the ability to coordinate 
drug control activities across the Federal Government and work 
directly with State, local, Tribal, and international partners 
to further the administration's drug policy goals. We use our 
budget oversight authority to prevent duplication and make sure 
Federal dollars are well spent. We work to lift up innovative 
programs at the State and local level, such as the Police 
Assisted Addiction and Recovery Initiative, or PAARI, where 
police work with public health to connect people with addiction 
to drug--with treatment for drug addiction.
    And we coordinate the response to specific drug threats. 
Our National Heroin Coordination Group and national cocaine 
group were designed to make us more nimble and approve drug-
specific coordination across government, such as developing 
safe handling instructions for fentanyl so first responders 
don't experience overdose, and prioritizing efforts to take 
down dark web marketplaces on the internet for drugs like 
fentanyl.
    On July 5, the Department of Justice took down AlphaBay, a 
primary source of fentanyl. As you're well aware, ONDCP runs 
two grant programs that work to address the national problem. 
The HIDTA program facilitates coordination between local law 
enforcement, State, and Federal officials, and approves 
antitrafficking operations in each of the 28 HIDTAs. The DFC 
program provides grants to nearly 700 community-based antidrug 
coalitions across the country.
    Before I close, I'd like to acknowledge and thank the 
Government Accounting Office. We have been through numerous 
engagements with GAO, and I've found that their recommendations 
have been extremely helpful to us in our work.
    We look forward to working with the committee on a 
reauthorization measure that aligns with the administration's 
priorities and provides the framework for ONDCP to best address 
the serious crisis the country faces on drugs.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Mr. Baum follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    Chairman Gowdy. Thank you, Director Baum.
    Ms. Maurer.

                   STATEMENT OF DIANA MAURER

    Ms. Maurer. Good morning, Chairman Gowdy, Ranking Member 
Connolly, and other members and staff. I'm pleased to be here 
today to discuss GAO's recent work on Federal efforts to 
address illicit drug use.
    Combatting drug trafficking, drug abuse, and the associated 
impacts on public health and public safety is costly. The 
current administration has requested nearly $28 billion for a 
wide variety of activities involving several Federal agencies. 
It's a truly multifaceted effort with very different missions 
in public health, law enforcement, intelligence, education, 
corrections, and diplomacy, and it needs to be.
    The problems from illicit drug use in the United States are 
complex, widespread, and deep-seated. And if there's one thing 
we've learned over the past several decades, there are no quick 
or easy fixes. But more significant than the cost and 
complexity of Federal efforts is the very human, very tragic, 
and increasingly deadly toll of illicit drugs.
    According to the CDC, there were over 52,000 deaths from 
drug overdoses in 2015. That's up more than 40 percent since 
2009. It's difficult to grasp numbers like that. 52,000 death 
in a year means 144 Americans die every day. That's more every 
2 days than in all the terrorist attacks in this country since 
9/11. There's another way to think about it. The Vietnam 
Veterans Memorial here in Washington, D.C. has over 58,000 
names on it. So one way to visualize the current human impact 
of illicit drugs is to picture building a memorial of similar 
size every single year.
    Given these bleak facts, it's vital that taxpayer dollars 
to address this problem are well spent, that we're making 
progress, and that the various agencies are well-coordinated. 
Those are goals to keep in mind as you consider 
reauthorization. It's important for ONDCP and the various 
agencies to have a clear strategy to guide them, goals and 
measures to know whether they're making progress, and seamless 
coordination and collaboration.
    And over the years, ONDCP, to its credit, has focused a 
great deal of time and attention developing strategies and 
using performance measures to assess the progress of Federal 
drug control efforts. The administration is currently updating 
the National Drug Control Strategy. Since that remains a work 
in progress, my comments today are based on goals and measures 
from previous strategies.
    In 2010, ONDCP issued a series of goals with specific 
outcomes the Federal Government hoped to achieve by the end of 
2015. And as we have previously reported and testified, ONDCP's 
goals provided a dashboard with meaningful indicators of 
progress and clear goals. The Federal Government achieved none 
of the seven overall goals established in 2010. Now, in some 
key areas, the trend line moved in the opposite direction; 
things got worse. For example, the number of drug-related 
deaths increased over 41 percent, rather than decreasing 15 
percent as planned. The prevalence of drug use by young adults 
increased rather than decreased, largely due to increased 
marijuana use.
    But there is also important progress in some key areas. 
There have been substantial reductions in the use of alcohol 
and tobacco by eighth graders. And the prevalence of drug use 
by teenagers has also dropped, not enough to meet the goals set 
in 2010, but certainly an encouraging sign. And preventing drug 
use is a key part of the overall Federal effort.
    Last year, the comptroller general convened a diverse group 
of healthcare, law enforcement, and education experts to 
discuss, among other things, high priority areas for future 
prevention efforts. They identified several options, including 
increasing the use of prevention programs that research has 
shown to be effective; working to change perceptions of 
substance abuse; emphasizing that a substance use disorder is a 
disease that can be treated; reducing the number of 
prescriptions issued for opioids; supporting community 
coalitions that include the healthcare, education, and law 
enforcement sectors; and improving Federal data on drug use.
    Mr. Chairman, as Congress considers these and other options 
while debating ONDCP's reauthorization, it's worth reflecting 
on the deeply ingrained nature of illicit drug use in this 
country. It's an extremely complex problem that involves 
millions of people, billions of dollars, and thousands of 
communities. GAO stands ready to help Congress assess how well 
ONDCP and the other Federal agencies are doing to reduce the 
impact of illicit drug use.
    Thank you for the opportunity to testify this morning, and 
I look forward to your questions.
    [Prepared statement of Ms. Maurer follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Chairman Gowdy. Thank you, Ms. Maurer.
    Dr. Humphreys.

              STATEMENT OF KEITH HUMPHREYS, PH.D.

    Mr. Humphreys. Chairman Gowdy, Ranking Member Connolly, and 
members of the committee, thanks for your leadership, and thank 
you for inviting me to speak to you today. My comments are 
informed by my 30 years as an addiction researcher and 
clinician, and also by my service at ONDCP where I was honored 
to serve in the Bush and Obama administrations.
    As has been said, we're losing----
    Mr. Connolly. Mr. Humphreys, I'm sorry, if we can 
interrupt. It's very hard to hear you. You need to speak right 
into it like I'm doing.
    Mr. Humphreys. Okay. Is this better?
    Mr. Connolly. Much better. Thank you. 
    Mr. Humphreys. All right. I hope you heard me say thank you 
for having me here today. Thank you for your leadership.
    As has been said, we are losing over 50,000 Americans a 
year. To give my own comparison point, that's more than we lost 
to AIDS in the worst year of the epidemic.
    ONDCP was set up actually to respond to the crack cocaine 
epidemic, but I think a modernized reauthorized ONDCP could be 
a very powerful force against this new and quite different 
epidemic.
    ONDCP can coordinate the Federal policy process. If there's 
no one writing a national strategy, what happens is Federal 
agencies, some of them lose interest, not because they don't 
care, but just because they have a lot to care about at the 
Federal level. Also, sometimes agencies have competitive 
programs, duplicative program, or programs that have no 
evidence of effectiveness. So ONDCP's most important job is to 
herd the cats in Washington and get a strategy that is unified 
and effective. You can help them do that job better by giving 
out some more carrots and sticks.
    So on the carrot side, providing some money for 
demonstration projects for ONDCP could help them entice 
agencies to try new drug policies or new programs. On the 
carrot side, ONDCP's power to review and decertify budgets 
could be strengthened so that the Director of ONDCP was the 
final word on that, rather than usually having to yield to OMB.
    Related to that, there is a notification requirement in the 
2006 reauthorization that says Congress must be notified when 
there's a decertification. That has made directors very wary of 
using decertification. It hasn't been used in years. And you 
might consider dropping that, letting the executive branch work 
among itself and get on the same page before they come to you 
with their ideas.
    Last, I hope you would urge the President to put the ONDCP 
director position back in the Cabinet. That gives a really 
strong message to the bureaucracy that we're taking drug policy 
seriously.
    Another critical role for ONDCP is to serve as a resource 
to the White House and to Congress on the role of addiction 
issues in mainstream healthcare. Just give you an example on 
that, a very current example. Many people aren't aware that 
Medicaid is now the lead funder of opioid addiction treatment 
in this country. So it's important for ONDCP to be a voice to 
say, if we curtail that program, we, by definition, curtail 
treatment for this problem.
    ONDCP would also be helpful with Medicaid and other 
programs in being the voice for procedures and policies. We 
have to reduce the likelihood that opioid prescriptions are 
inappropriate, which is a challenge for all health insurers. 
ONDCP has been less influential on healthcare policy than it 
could have been because it was created primarily as a domestic 
and law enforcement agency, and its staffing, its knowledge 
base, and its strongest relationships reflect that heritage.
    Law enforcement is extremely important in drug policy and 
it always will be. But health policy is also really important, 
and it might even be more important for the opioid epidemic, 
which after all, was started not by criminal gangs, it was 
started in the healthcare system. Congress could support a 
broader role for ONDCP and healthcare policy by better 
balancing the focus of the agency's authorization. Just as one 
crude indicator of what the last authorization asked ONDCP to 
do, my own count is that the text mentions interdiction 40 
times, enforcement 98 times, and healthcare only once.
    Congress could also mandate a bigger role in the drug 
policy development process for major healthcare agencies like 
the CDC, the FDA, and CMS. Congressional guidance regarding 
ONDCP staffing to ensure they have good in-house health policy 
expertise could also help.
    Finally, with Congress's help, ONDCP could improve drug 
policy through targeted research efforts. To take a prominent 
example of why this matters, we really do not know how many 
people are addicted to heroin in this country. The measures 
just aren't that good. Giving ONDCP a bit of some funding to 
either conduct research or commission research on critical drug 
policy questions like that would reap huge rewards for the 
development of policy and also its evaluation.
    In closing, I want to emphasize we're in the midst of one 
of the worst drug epidemics in the history of our Nation. With 
the right support from you, the White House Office of National 
Drug Control Policy can lead the government and the country in 
a coordinated, effective, and lifesaving response to this 
horrifying epidemic.
    Thank you for your time, your leadership, and I look 
forward to your questions.
    [Prepared statement of Mr. Humphreys follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Chairman Gowdy. Thank you, Dr. Humphreys.
    Mr. Flattery. And all the members would also like to 
recognize and welcome your wife, who is with you today as well. 
You're recognized.

                   STATEMENT OF DON FLATTERY

    Mr. Flattery. I join others in thanking you, Mr. Chairman, 
Ranking Member Connolly, at least for today, and other members 
of the committee, for conducting this hearing about 
reauthorization of the Office of National Drug Control Policy. 
It's a much needed discussion to ensure the Federal Government 
is prepared to fight to end the epidemic of prescription drug 
and heroin addiction the country is facing. And while I 
strongly support, as an advocate, the activities of ONDCP, my 
purpose in this discussion today is not to drill down and 
discuss individual activities in any detail.
    My name's Don Flattery, and until recently, I lived in 
Fairfax County, Virginia. I'm a former Federal manager; a 
recent member of the Virginia Governor's Task Force on 
Prescription Drug and Heroin Abuse; a policy advisor to the 
national addiction-fighting nonprofit, the FED UP! Coalition; 
and I'm an active participant in my newly adopted county of 
Brunswick, North Carolina's addiction task force.
    But I'm not here today in any of those roles. I'm 
addressing the committee solely as a grieving parent, someone 
who's lost his 26-year-old and only son to an opioid overdose 
less than 3 years ago.
    In prior committee hearings, you've heard the appalling 
statistics about the explosion of opioid prescriptions 
addiction rates over overdose deaths. I'm intimately aware and 
familiar with them and I'll not repeat them here, but those 
discussions are often far too clinical.
    As you, Federal officials, elected officials, State 
officials, and public health practitioners deliberate and 
consider solutions, it is far too easy to become detached. As 
you proceed, I implore you to recall the personal impacts. We 
are not just speaking about shocking, obtuse statistics. We're 
speaking about my son, your daughter, and our neighbors. 
They're real people with real lives, suffering from a disease, 
and their losses are the face of the epidemic that we must 
stop.
    Allow me to briefly share my son's story. On Labor Day 
weekend 2014, my family lost my 26-year-old Kevin to an opioid 
overdose. Like so many swallowed by this crisis, Kevin enjoyed 
the blessings of a typical suburban upbringing, attending 
private schools, participating in youth sports and high school 
athletics. He came from a loving two-parent home and leading 
the quintessential middle class life, enjoying all of life's 
and God's blessings.
    He was a good student and was a graduate of the local all 
male prep school, Gonzaga, right here in Washington, D.C., and 
later the University of Virginia, where he actively 
participated in student and fraternity life. Kevin came to his 
addiction as a working adult while pursuing his talent and 
passion working in the film industry in Hollywood and New York 
City. He'd been exposed to opioids as a teen after an injury, 
and he told me himself that he thought nothing of them. Like so 
many, he underestimated them.
    While working, he began self-medicating issues with anxiety 
and depression with the widely available opioid prescription 
drug, OxyContin, which is a common story, as many struggling 
with coincident mental health issues develop addiction 
problems. He quickly became dependent and then addicted. He 
returned home to Virginia in the fall of 2013 to his family 
seeking treatment and support. Like many struggling in search 
of treatment, he tried a wide variety of pathways, including 
detoxification, medication-assisted programs, and an 
outrageously expensive 28-day abstinence only residential 
program.
    Some of these were covered by insurance, but others were 
covered out of pocket. But like others in pursuit of recovery, 
he experienced the painful and very common process of seeming 
progress followed by relapse. Days before he was to start a 
program of the medically assisted treatment drug, naltrexone, 
he used again and he did not recover.
    The short bio description I just gave you is an example of 
how the scourge of the opioid addiction epidemic before us 
today has no stereotypical victim. It's affecting people of all 
walks of life, all income levels, and all backgrounds. This 
epidemic--and make no mistake, this is an epidemic--and my 
son's addiction do not respect income, social status, or 
intelligence. That's what epidemics do. That point bears 
repeating in every hearing this committee and others conduct 
which touch upon this health crisis.
    Since my son's loss, I've learned a great deal about the 
disease of addiction, the current epidemic, and it's underlying 
causes, and painfully, for me and my wife, some evidence-based 
treatment opportunities that offer hope, but now only for 
others. From the perspective of an impacted parent, as a 
citizen, and as an advocate, I would like to add my voice to 
thousands traveling the same journey about some imperatives 
needed to stem the tide of the epidemic.
    The first is the primary topic of this very hearing. The 
need for a strong well-resourced and effective ONDCP has never 
been more important. A policy office directly tied to the 
Office of the President not only sends a message to the public 
about the importance of effective drug policy, but it also 
ensures more effective development of integrated, cross-Federal 
Government programs and policies. ONDCP plays an essential role 
in being an integrator and a coordinator for the widely 
disparate addiction-fighting efforts of HHS, SAMHSA, NIDA, CDC, 
the FDA, as well as programs in the VA, DOD, Indian Health 
Service, and a wide variety of law enforcement agencies. 
Interagency discussions and collaborations will be ineffective 
without the singular collaboration entity empowered to work 
across stovepiped efforts and programs.
    The second imperative is continuous coverage of addiction 
treatment. Access to medication-assisted treatment already 
remains elusive for far too many patients. Changes to the 
Nation's healthcare system that remove mental health and 
substance use disorder coverage as an essential benefit will be 
a disaster for many, including those like my son, seeking such 
help. We must find ways to expand, not limit, access to 
addiction fighting medications, and ensure insurance companies 
and providers do so at a reasonable cost.
    Mr. Chairman and members of the committee, thank you again 
for addressing the need for an effective ONDCP as part of the 
Federal Government's response. We need to ensure Federal 
entities do their part to appropriately protect our loved ones 
and the public health. Americans suffering from this scourge 
deserve no less. Thank you.
    [Prepared statement of Mr. Flattery follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Gowdy. Thank you, Mr. Flattery.
    We'll now recognize the gentleman from Oklahoma, Mr. 
Russell, for his questions.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, panel, 
for being here today. I agree with all of the statements that 
have been made.
    And, Mr. Flattery, you know, you certainly bring--you and 
your wife bring this issue--put a personal face on it. It 
affects so many. I have also seen the devastating effects of 
overmedication in trying to treat veterans, as a combat veteran 
myself, and seeing a number of folks as they try to come home. 
It seems to be the simple thing is just to give warriors a bag 
of cocktail-type of medications, and then now they're on 
addictions. And then we wonder why the returning veteran came 
home and, quote, committed suicide, when it may have been the 
direct effects of overmedication and addiction.
    It seems to me, Mr. Chairman, that we all bear 
responsibility for this. It was Congress that made the decision 
to relax the laws that allowed more over-the-counter direct 
access to what I consider to be legalized heroin.
    So I guess my first question, and whoever would like to 
comment, but we'll start with you, Mr. Baum. And thank you for 
your dedicated years of service in dealing with difficult 
issues.
    What legislatively could we do? We let the genie out of 
this bottle by relaxing the access. You know, I go home, even 
in the great State of Oklahoma, you'll see these pain and 
injury centers everywhere. Somebody can walk in and the next 
thing you know, some physician may sign off and, you know, you 
can go off with a bag of pills.
    What legislatively would you like to see done with the 
decades of retrospect and how we got here?
    Mr. Baum. Congressman, thank you for your question. There 
are a lot of things that we can do more of. And, you know, I 
guess I would start by saying, when we're in a crisis and so 
many people are dying, we need to do more of everything. So I 
would love to see tighter restrictions on use of the narcotic 
analgesics. I don't think the evidence is there to have these 
substances used as a default for chronic prescriptions. You 
know, once--the data is very clear. Once someone is using these 
substances for more than 5 days, their addiction rates go up 
dramatically. So tighter controls on that.
    Certainly, resources for prevention, treatment, and 
medication-assisted treatment. We have lots of very clear 
evidence that people do well on medication-assisted treatment. 
Everyone should be offered it. If you look at the data, only 
about a third of the people with a diagnosed opioid use 
disorder actually now have access to treatment.
    And let me say one last thing, and maybe turn it over to my 
colleagues, is that 80 percent of people with a substance use 
disorder do not come forward for treatment. So we don't just 
need to get better high-quality treatment to those who are on a 
waiting list; we need to go out and find the people out there 
and bring them in and control them and encourage them to get 
the help that they need.
    Mr. Russell. Thank you, sir.
    And anyone else who would care to comment.
    Mr. Humphreys. Congressman, I just want to give you an 
important piece of information about how much prescription 
opioids Americans consume. On a per capita basis, we are the 
world leader by an enormous margin, six times what European 
countries prescribe. We could cut prescribing by 40 percent and 
we would still be the world leader in opioid prescribing. So 
that is the biggest wheel.
    There are many good policies, treatment, prescription 
monitoring, and so forth, but that's the fundamental thing, is 
we're just prescribing way too much.
    Mr. Russell. Okay.
    Ms. Maurer?
    Ms. Maurer. Yeah. When the comptroller general convened the 
panel of experts last year, that was one of the topics of 
discussion precisely, what you just asked about. And there were 
some common themes that came across from that body of experts, 
and one was exactly what Dr. Humphreys just talked about. First 
and foremost was prescribe fewer opiate medications.
    But hand in hand with that was also a theme of providing 
additional education to providers. The CDC has some 
guidelines--some recently updated guidelines that apparently 
the word has not gotten out fully on those things. Prescription 
drug monitoring programs are an important part of this. And as 
well as on the law enforcement side, continuing aggressive 
investigation and prosecution of pill mills.
    Mr. Russell. Thank you.
    Mr. Flattery. If I may, just to add to that. The recent 
activities have been somewhat successful in reducing the number 
of prescriptions. The U.S. with 5 percent of the world's 
population is consuming 80 percent of the world's opioids. 
Voluntary prescribing guidelines, development of PDMP systems 
are having an impact.
    Last year, prescriptions in this country declined to over 
220 million prescriptions. That's still enough for every 
American to have their own prescription bottle for 30 days. 
These prescription drugs are continuing to flood our 
communities, our workplaces, our schools, and our medicine 
cabinets, making them available for medical overuse and for 
abuse.
    You asked the core question, what can you do legislatively. 
We need our State partners, because they are responsible for 
managing the practice of medicine, and we need them, and they 
are, we are beginning to see some progress in State capitals 
addressing the overprescription of opioid drugs.
    Mr. Russell. Thank you.
    And thank you, Mr. Chairman, for you indulgence. I yield 
back.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Virginia is recognized.
    Mr. Connolly. I thank the chair. And again, I thank the 
panel for their very cogent testimony.
    Mr. Baum, this is a hearing on the reauthorization of your 
office. Has the administration or has your office submitted a 
draft reauthorization bill to the Congress?
    Mr. Baum. Mr. Connolly, we have not, but we do have some 
considered thoughts and would be happy to discuss some of 
those----
    Mr. Connolly. Well, we need a reauthorization bill from 
somebody, even if we decide to go a different direction. Any 
idea when it might be submitted?
    I mean, the chairman pointed out, I think the last 
reauthorization was 2006, so it's grown stale. We heard Dr. 
Humphreys point out, you started out originally as a crack 
cocaine focus, things have changed. Reauthorization's got to 
take cognizance to that. We want to be supportive, but we've 
got to have some kind of timeframe in which you're going to--
not you personally--the office and the administration are going 
to interact with Congress that ultimately has to do the 
reauthorization.
    Any idea when we might see a draft?
    Mr. Baum. I don't want to give you a timeline, but I can 
tell you this. I've studied the issue very closely. We know 
what we need to do.
    Mr. Connolly. Okay.
    Mr. Baum. We can put together a reauthorization bill and 
work with our partners in the administration and get something 
to the Congress relatively rapidly. So I look forward to the--
--
    Mr. Connolly. I don't presume to speak for the committee, 
but I think as you can hear, on a bipartisan basis, we're 
seized with this mission and urgency, and I hope you'll take it 
back. We want to see a reauthorization. We're happy to help, 
but--okay.
    Mr. Baum. We want to see it too. We're eager to move out on 
it.
    Mr. Connolly. Likewise, we need a strategy. Any idea when a 
strategy will be submitted to the Congress?
    Mr. Baum. I have a very precise idea.
    Mr. Connolly. Okay.
    Mr. Baum. I'd be happy to discuss that, and I know Mr. 
Gowdy raised it as well. We're developing a strategy now. You 
know, I do want to say that I take the deadlines that--the 
statutory deadlines extremely seriously, and I know what the 
deadline is, February 1. In the Trump administration we are 
developing a strategy, we have a draft, we're consulting both 
formally in terms of letters to Members of Congress. I've been 
traveling, holding meetings. I'm holding interagency meetings. 
We are working a conference of strategy----
    Mr. Connolly. Again, I'll stipulate to all that. Look, I 
only have 5 minutes.
    Mr. Baum. Yeah, sure.
    Mr. Connolly. When can we see it?
    Mr. Baum. The deadline is February 1 of next year, and 
there is an issue with--we are required to wait until the 
President's budget comes out, but sometimes it is a few weeks 
after. But early next year, you'll have a comprehensive drug 
strategy from the administration hovering the entire scope of 
the issues.
    Mr. Connolly. All right. Well, let me invite you, even in 
draft form, if you can, to start, because we want to be 
partners. And the urgency of the subject, you know, I think 
demands executive and legislative branch cooperate as much as 
we can. So that strategy, you know, I hope will reflect the 
realities so many Members are experiencing in their respective 
districts. And so we'd be glad to work with you, but we've got 
to have some kind of draft to start with.
    Likewise, what about the appointment of a director? And I 
think you're perfect, you're my constituent. How can we do any 
better than you? But we still don't have--it's been 6 months, 
and you're not alone, there are a lot of vacancies in the 
executive branch, but this one's pretty critical. Any idea when 
we might hear a name floated, let alone actually someone 
nominated?
    Mr. Baum. Well, thank you for that strong endorsement. I 
appreciate that.
    Mr. Connolly. I won't help you with Donald Trump, but----
    Mr. Baum. I'm----
    Mr. Connolly. I can bad mouth you if that would help.
    Mr. Baum. You know----
    Mr. Connolly. Donald, this man's a loser. Don't do it.
    Mr. Baum. Can I take back my time then?
    Mr. Connolly. Yeah, yeah, yeah. It's actually my time, but 
go ahead.
    Mr. Baum. We appreciate the thought. We know that they're 
working on filling these positions. It's a critical position, 
and as soon as we have something to report, you'll be the first 
to know.
    Mr. Connolly. Well, that's so comforting. All right. Thank 
you.
    Mr. Flattery, I want to go back to your testimony. And 
thank you so much for being willing to share. Thank you to your 
wife for coming up here.
    You mentioned your--well, first of all, and I don't--if the 
chair will just indulge me in this line of questioning for a 
little bit to draw out a little bit more the story of Kevin.
    So your son wasn't hanging around with the wrong kind of 
crowd that was into drugs and that's how he ran into trouble. 
That's not how his problem began, is it?
    Mr. Flattery. No, it is not. My son did not, as many 
unfortunate young people do, he did not surrender his youth, he 
did not turn his back on his activities and friends and school 
work. He became addicted as a working adult pursuing what he 
was passionate about.
    Mr. Connolly. But he became addicted. What triggered the 
need--or his perceived need for the use of an opioid?
    Mr. Flattery. In my son's case, my wife and I believe that 
he began medicating issues with--self-medicating issues with a 
widely available drug.
    Mr. Connolly. No. But why?
    Mr. Flattery. Because like many people who develop 
addiction problems, they often have coincident psychosocial 
issues that have to be dealt with, and that's why pairing of 
mental health services and addiction treatment services is so 
critical.
    Mr. Connolly. In his case, he was in New York trying--he 
was an aspiring film maker?
    Mr. Flattery. At that time, he was in Hollywood.
    Mr. Connolly. In Hollywood. All right.
    Mr. Flattery. And he was exposed to widely available 
OxyContin and very inexpensive OxyContin.
    Mr. Connolly. He came home?
    Mr. Flattery. He did.
    Mr. Connolly. And he, from your point of view, made a 
really good-faith effort to try to lick this, correct?
    Mr. Flattery. Yeah. Sort of adding to our own personal 
tragedy, our son was completely cooperative in trying to pursue 
treatment. He recognized that he had fallen into the rabbit 
hole and he was in over his head. He was seeking our support. 
He tried a number of pathways. And they're common pathways. 
Detox, intensive outpatient support from Inova Fairfax 
Hospital. He was on a regimen of buprenorphine, also known as 
Suboxone, and he still struggled with it. He attended peer 
support through AA and NA. But at one point, he same to us and 
said, you know, I just--he began to manipulate his own 
Suboxone, because it's a self-administered medication. And he 
said, you know, I think I would like to try a residential 
treatment program.
    And I do have issues with my son's experience in 
residential treatment. Many, not all, residential treatment 
programs often use a detoxification, and then couple either 
cognitive behavioral talk therapy during the 30-day stay with 
what I consider to be reformulated step program dogma, which is 
available for free in church basements all over the country. 
Those programs, at least the program that my son encountered, 
are very expensive, $28,000 to $30,000 a year. Those types of 
programs, I think, are emblematic of why our treatment system 
is broken.
    Many families will do anything in their power to get help 
for their loved one, as we would. And many families are 
bankrupting themselves sending them to such facilities that 
then after the 30-day stay, release them to the wild. And they 
often are treating the people who attend, not as patients, but 
as customers. And the disease of addiction is a chronic, 
reoccurring issue that has to be dealt with over a long period 
of time.
    And in my son's case, he was not ready to be released to 
the wild after 30 days. It's not a magic fix. And our treatment 
system has to be reengineered to provide long-term care for a 
chronic condition, and that's, in my estimation, where my son's 
journey broke down.
    Mr. Connolly. Thank you.
    Mr. Chairman, you've been gracious. I thank you.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Tennessee, Dr. DesJarlais.
    Mr. DesJarlais. Thank you, Chairman. And I thank the 
witnesses today for appearing on this extremely important 
topic.
    Mr. Flattery, you and your wife have become way more 
involved in this issue than you probably ever hoped to since 
the loss of your son. You'd mentioned a couple of times here to 
Mr. Connolly and in your opening statement about the ease of 
access of opioids, specifically OxyContin. Can you explain a 
little further what your understanding is of why these are so 
easy to get and why they're so inexpensive?
    Mr. Flattery. Well, I'll first start with the basic essence 
of the anatomy of this epidemic. This is, as Mr. Humphreys 
indicated, this wasn't started by drug dealers who had built a 
business model around providing illicit drugs. This had its 
origins in the medical community, and I believe you are a 
medical practitioner yourself and understand that.
    In an attempt to be compassionate in the treating of pain, 
American physicians use their prescription pad. American 
physicians also have a deficiency in prior training on proper 
pain management and addiction management. There isn't even a 
whole discipline built yet around addiction management in 
medical schools.
    So in an attempt to provide compassionate care, American 
physicians are implicated in the overuse of opioid drugs for 
all manner of pain conditions for which they were never 
intended. They started out as a drug that was to address 
terminal cancer pain and recovery from acute injuries, and it 
drifted into the use of opioid drugs for migraines, arthritis, 
indiscriminate lower back pain. In the dental community, for 
wisdom tooth extraction. And they not only were being 
overprescribed, they were being prescribed in quantities that 
were completely unnecessary for the treatment of an acute 
condition. And as Mr. Baum indicated, long-term use of opioid 
drugs lead to addiction.
    Now, you asked the question about why so ubiquitous. And 
the answer is, in 2013, we hit the peak year in the U.S. with 
over 259 million prescriptions. That's a number in the billions 
of individual doses. And those drugs are flooding communities 
and workplaces, and they're just widely available, and they're 
available for potential misuse. So they're available at low 
cost on the street.
    Mr. DesJarlais. Okay. Mr. Baum, is there currently any 
legal requirement for prescribers, physicians, nurse 
practitioners, to fully educate their patients on, not only the 
harms addictive properties of these medications, but also to 
educate them on the dangers and illegality of sharing these 
medications with other people?
    Mr. Baum. Thank you for the question. There is no 
requirement from mandatory prescriber education, and frankly, I 
am very concerned about that. I know in the previous 
administration, there was discussion about increasing voluntary 
prescriber education. But looking at the progress, I don't 
think it's been nearly enough. And I think it's something that 
we ought to talk about making it mandatory. To make sure at 
least those prescribers that are putting these very, very 
powerful drugs in the hands of our citizens, spend a few hours 
learning about the risks and about addiction, I think would be 
important, and it's something that we should talk about.
    Mr. DesJarlais. I think it's, yeah, probably more than 
something we should talk about. As a former physician and 
current holder of a DEA license, I know that I would make it a 
point to educate my patients on the power of these drugs. But, 
also, I think there's responsibility among the patients to know 
that it should be illegal to share these drugs. I have a 
license, went to medical school to prescribe them, but patients 
often will just share it with family and friends thinking that 
it's okay. That should be a crime. And it probably is, but it's 
not enforced.
    And if one of the problems is overprescribing, that needs 
to be stopped. And physicians and medical students and all 
prescribers should be educated in medical school on this issue. 
Because of the scope of this problem, the time is ripe to do 
that.
    But, also, I think that it is a patient's responsibility to 
properly handle these medications, and there should be laws and 
documents that a patient should sign when they pick up this 
prescription, either from the pharmacy or when physicians 
prescribe it. Would you be willing to look at that as an 
option?
    Mr. Baum. Yeah, I'm absolutely willing to look at it. But I 
really think the major responsibility is with the prescribers. 
When you have an injured kid that you're taking to the doctor 
and the doctor gives you your prescription to take pills for 30 
days or 60 days and you get your bottle of bills with the 
directions, the tendency is to follow the directions, and now 
we're putting it on parents to ask the doctor, hey, should my--
does my kid really need to take this for 30 days for a wisdom 
tooth extraction. And I think it should be the other way. The 
doctors are the experts. They're the one in the white coats. 
They're the ones with the responsibility to think about the 
powerful medications they're putting in the hands of our 
citizens.
    Mr. DesJarlais. And I'll promise you that the vast majority 
of all doctors feel the same way. They don't want to harm 
patients with these medications. They don't want to prescribe 
irresponsibly. They are always bad actors, and that's who we 
need to focus on.
    I think that that door swings both ways. Physicians 
definitely should take the brunt of the responsibility. I also 
think that law enforcement should focus on people who share or 
sell these medications, because as a physician, that was always 
a concern of mine. If I was treating someone with chronic pain 
or even cancer, you just assume that those people are taking 
the prescriptions properly. That's not always the case. And I 
have all kinds of stories where I found out people were being 
put in very vulnerable situations by family members to get 
these prescriptions so they could go out and sell them, and so 
they were forced to lie to me. I didn't know I was doing the 
wrong thing, and I know other physicians are in the same 
situation where they get tricked or duped into thinking people 
have critical problems or illnesses.
    And so I do think the enforcement side of that needs to be 
ramped up as well, but there's a dual responsibility. And the 
bottom line is we have a huge number of people dying every 
year, and it's not time to think about what we should do, we 
should be doing it. And I'm happy to work with you further on 
this issue.
    And thanks to the chairman for giving me the additional 
time. I yield back.
    Chairman Gowdy. The gentleman from Tennessee yields back.
    The gentlelady from the District of Columbia is recognized.
    Ms. Norton. Thank you very much, Mr. Chairman. And I want 
to first thank you for this hearing. It's a very timely 
hearing. And I appreciate the bipartisan way in which this 
hearing is being held. This is an across-the-board problem. 
Already I've heard ideas, including from my colleague on the 
other side, as to the kinds of things we need to be thinking 
about, and for reauthorization.
    I thought the President had begun in a bipartisan way 
himself when early on he said he thought that we should--and 
here I'm quoting him, show great compassion about the opioid 
epidemic. And then the Office of Management and Budget 
virtually abolished your agency with a 95 percent cut. And here 
is where bipartisanship mattered. There was an outcry on both 
sides of the aisle, and I think in the only--or one of the few 
circumstances where I have seen the OMB take back its mark, it 
did. And now I understand only a 5 percent cut.
    And, Mr. Chairman, could I ask that the letter from the 
ranking member, Elijah Cummings, and from Representative 
Johnson, a Republican from Ohio, was signed by 75 members 
asking that this cut be reversed. It worked. And I ask that 
that may be made part of the record. Mr. Chairman, is that a 
part of the record?
    Mr. DesJarlais. [Presiding.] Without objection.
    Ms. Norton. Thank you, sir.
    First, let me mention the statement by Mr. Connolly. It was 
kind of a very telling critique of current marijuana policy. We 
all know, I don't care what side of the aisle you sit on, that 
marijuana is, per se, legal in the United States, certainly by 
people younger than anyone on these panels, other than--younger 
than 40, let me say, to be gracious.
    Yet Congress has prohibited the District of Columbia from 
using its local funds to tax and regulate marijuana, tried to 
keep the District from indeed making possession of only 2 
ounces legal, but Congress didn't know how to write an 
appropriation rider that would do that effectively. So here is 
what we have. The unintended consequences of no regulation, no 
taxation, as eight States do, but you can possess marijuana.
    Ms. Norton. So what we've done in the District of Columbia 
is we have expanded the underground market for marijuana. 
Indeed, it's nicknamed in the District the drug dealer 
protection act. And The Washington Post actually identified a 
marijuana dealer, and he said it was a license for me to print 
money.
    Now, there are members of this committee who are from some 
of the eight States that have legalized marijuana. They are 
Alaska, California, Colorado, Maine, Massachusetts, Nevada, 
Oregon, Washington State, and Washington, D.C.
    My question for Mr. Baum is if D.C., if the District of 
Columbia, could tax and regulate marijuana, would that have the 
effect of at least partially undermining the illegal 
marketplace for marijuana in this city?
    Mr. Baum. Well, I thank you, Congresswoman, for the 
question. I have to say, I'm a Federal official. Marijuana is a 
Schedule I illegal substance in the country.
    Ms. Norton. And I understand that, and I have very limited 
time. I'm trying to find cause and effect.
    You've seen what's happened in the other eight States. And 
I'm simply asking, if you make it legal, if everybody is using 
it anyway, as is surely the case for younger people----
    Mr. Baum. It's not the----
    Ms. Norton. --would that make it less likely that you go to 
an underground peddler?
    Mr. Baum. Ma'am, respectfully, I don't believe that. It's a 
harmful substance. Just because it's not killing people the way 
fentanyl----
    Ms. Norton. I'm talking about how you buy it, sir.
    Mr. Baum. Yeah. Everyone isn't using it, you know. And we 
have our--I'm concerned about young people in this country 
and----
    Ms. Norton. All right. Let me ask you this. If you're 
concerned about young people, would you be concerned that the 
District of Columbia can't regulate marijuana so as to keep it 
out of the hands of people under 18, for example? Would that be 
a concern of yours?
    If, in fact, you're going to possess--if a jurisdiction is 
going to possess marijuana, should it not at least have the 
opportunity to keep marijuana out of the hands of children?
    Mr. Baum. I worry that making a substance widely available 
and legal increases acceptance of it and increases use among 
youth. And I think we need to look very closely at what's 
happening in Colorado and the other States to see if marijuana 
use especially----
    Ms. Norton. Can I ask if you are doing that? We would very 
much like you to do that. What are you doing as to the States 
that have already legalized marijuana? Are you giving us any 
feedback so that we'll know what to do when the time comes for 
reauthorization?
    Chairman Gowdy. [Presiding.] The gentlelady's time has 
expired, but you may answer her question.
    Mr. Baum. We did have a Federal team go out to Colorado and 
talk to officials across the spectrum, and we're trying to 
learn about what's happening. I have to say, I'm concerned 
about this commercialized model of widespread availability of 
marijuana and very limited controls of marijuana being grown on 
public lands, of the involvement of cartels in Colorado in some 
of the marijuana production.
    I think there are a lot of challenges, and I think it's 
something we need to really think about whether we want to make 
a substance that is harmful more available to our citizens.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Gowdy. The gentlelady yields back.
    The gentleman from Montana is recognized.
    Mr. Gianforte. Thank you, Mr. Chairman.
    And thank you for the panel for your testimony. This is a 
critically important issue.
    And, Mr. and Mrs. Flattery, thank you for putting a 
personal face on this epidemic we have here.
    As I travel, you know, I hear repeatedly the impact of drug 
addiction on skyrocketing kids in foster care, crime, domestic 
violence. As I talk to law enforcement, there are so many--in 
addition to the personal tragedies that we've heard today, so 
this is very appropriate we have this conversation. And I also 
am looking for solutions and seek your advice.
    I would be curious--we have 50 States where we look at 
solutions. I'm curious to hear from the panel of any particular 
examples where States have taken action that have had positive 
impact on this issue, and just so that we can learn to look at 
whether or not some of those things make sense at a national 
level.
    Mr. Humphreys. Thank you, Congressman. I'll give you two 
State policies that show evidence of good effect.
    One is, which has been done in Oklahoma, is called 
reimbursement lock-in. And what this is, is that if you are 
covered by an insurance program and you have three, four, five, 
six, seven providers writing you prescriptions, the insurer, 
say Medicaid, will tell you, look, you can get this 
prescription, but you have only one doctor. And if that person 
is doctor shopping or dealing on the side, then they're 
constrained. But if they're a legitimate paying patient, they 
still have one doctor. So that's reimbursement lock-in.
    Second one are prescription drug monitoring programs. These 
vary in quality around the country. Some are easy to use, some 
are hard to use, but the best ones allow a physician to know, 
before they write that prescription, is this person getting 
lots of prescriptions other places. It also can be used by the 
State to see, is there a particular provider who has really 
suspicious prescribing? When those programs are well resourced, 
they reduce overdose deaths. Those should both be used 
everywhere in my----
    Mr. Gianforte. So in that particular case, in Oklahoma, how 
is that actually accomplished?
    Mr. Humphreys. It's done through Medicaid. So the Medicaid 
set up a rule, which they have the power to do as a payer, and 
said, you know, if you get multiple opioid prescriptions from 
different providers on Medicaid, you have to pick--one of those 
doctors is going to be your doctor, period. And they're all 
going to have to come there. And it's an administrative 
decision that a Medicaid director can make.
    Mr. Gianforte. Okay. And open it up to the rest of the 
panel. Are there other examples you've seen in States that have 
been effective?
    Mr. Baum. Thank you, Congressman. And I hope to be coming 
out to Montana. Senator Daines invited us out there, so 
hopefully----
    Mr. Gianforte. You're welcome. We have room for you.
    Mr. Baum. So I did want to just mention, you know, police 
and law enforcement around this country, they really understand 
this problem very well. And they've been innovating across this 
country, especially in the States that are hard hit. And I 
think that sometimes we oversimplify. But, you know, there are 
drug traffickers, drug dealers, and major violent criminals, 
and those people need to go to prison for their crimes. But 
there are also people that their only offense is using and 
purchasing drugs, and many of those people can be diverted to 
treatment.
    And there's a lot of innovation. I mentioned in my 
testimony the police-assisted addiction program where police 
are actually taking people in, opening up their police station 
24 hours. If you want to come in for treatment and you don't 
have any serious trafficking or criminal offense, they will do 
a--an interview with them and consult with a health worker, and 
they'll put them in the car and drive them right to treatment.
    And I think--you know, police are very smart and flexible, 
and getting the people in the treatment who need treatment is 
something that they are facilitating across the country. Fire 
departments are doing it as well.
    You know, you look at the people in our communities that 
operate 24 hours a day, police, fire, crisis intervention, they 
are really stepping up and are a critical part of the solution 
all across the country.
    Mr. Gianforte. And, Mr. Baum, where is that particular 
program being run?
    Mr. Baum. Yeah. It started in western Massachusetts, and my 
office could give you more information, but now it's in 250 
places all across the country. Tremendous leadership by police 
chiefs and sheriffs who are stepping up to deal with this 
problem.
    Mr. Gianforte. Okay.
    Ms. Maurer. Just real quickly to echo what Mr. Baum was 
just discussing, that was one of the main themes of the 
comptroller general's panel last year, was the real importance 
of having these community networks at the local level that 
bring together law enforcement, they bring together public 
health, they bring together the education sector--our work last 
year was focused on prevention--but can have real benefits 
across the board with all different aspects of the illicit drug 
problems.
    Mr. Gianforte. Okay.
    Mr. Flattery. If I may, to sort of add on to the notion 
that we need to continue to support diversion to treatment in 
lieu of incarceration, one of the barriers to being effective 
in doing that is we need a Nation's reengineered treatment 
system. You cannot divert someone to treatment if in rural 
areas of many States there is no effective treatment to divert 
them to. It's an unnecessary and excessive burden to place on 
law enforcement. And there are a number of noteworthy programs 
around the country to pursue that, but until and unless we 
reengineer our treatment system, we're only going to have 
minimal effect.
    And then another follow-on, you had asked, and Mr. 
Humphreys pointed out, a number of places where we're having 
some impact on less in prescribing, the original development of 
voluntary opioid-prescribing guidelines for chronic pain that 
CDC developed are being mimicked and adopted in the States. The 
regulation of medicine occurs at the State, not here in this 
panel, and we are seeing a number of States try and expand the 
use of prescribing guidelines throughout the practice of 
medicine in their States, and not only in just ER settings, and 
that's where they first started, we need them to be applied in 
general practice settings where 60 percent of opioid drugs are 
being prescribed.
    Mr. Gianforte. Thank you. Thank you, Mr. Flattery.
    And I yield back.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Missouri is recognized.
    Mr. Clay. Thank you, Mr. Chairman.
    And I thank the witnesses also for participating in this 
hearing today.
    On May 10, 2017, Attorney General Jeff Sessions issued a 
memorandum instructing Federal prosecutors to, quote, charge 
and pursue the most serious, readily provable offense, 
including mandatory minimum sentences, for drug crimes.
    The Sessions sentencing memo marked a reversal from 
Attorney General Eric Holder's Smart on Crime initiative, which 
sought to move away from mandatory minimum drug sentences and, 
instead, focus Federal resources on the most dangerous 
criminals in complex cases.
    AG Sessions appears to be trying to reinstate the harsh and 
indiscriminate use of mandatory minimum from the failed war on 
drugs.
    Dr. Humphreys, do you think that a strict mandatory minimum 
policy will help us make progress in curbing the destruction 
caused by the opioid crisis?
    Mr. Humphreys. Thank you for that question, Congressman. I 
do not think that's the case. What I--I work a lot with States. 
I travel a lot. And what I see all around the country, South 
Carolina, Texas, South Dakota, California, Utah, is bipartisan 
coalition to move away from mass incarceration in the way we 
handled drug problems, basically, in the 1980s and 1990s.
    And the one place that hasn't sunk in as a perspective, I 
think, is actually in Washington. I think the States are out 
front on that. There's strong bipartisan agreement. It's better 
to treat people than lock them up.
    You know, there are some horrible actors out there who are 
doing terrible things, but they are a small part of who gets 
swept up, generally, in drug enforcement, and we should 
actually, as acting Director Baum said, be trying to, you know, 
restore everyone we can. Many of these people are just low-
level people who are addicted, and they're much better handled 
in the health system, not by giving them a, you know, 10-year 
stint in a prison.
    Mr. Clay. Yeah. And in response to Mr. Sessions' 
memorandum, Republican Senator Rand Paul wrote, and I quote, 
``The AG's new guidelines, a reversal of a policy that was 
working, will accentuate the injustice in our criminal justice 
system. We should be treating our Nation's drug epidemic for 
what it is: a public health crisis, not an excuse to send 
people to prison and turn a mistake into a tragedy.''
    Dr. Humphreys, do you agree with Senator Paul?
    Mr. Humphreys. I do agree with the Senator that this is a 
public health--addiction is a public health crisis. And it is, 
as has been said by Mr. Flattery, a--it is a chronic medical 
illness. We should be taking care of it in the treatment 
system.
    And, again, I understand that there are terrible drug 
traffickers who are violent and terrorize communities, and I 
have no sympathy for them at all. But a huge number of people 
at the low end of the drug trade are people who themselves have 
drug problems, and we should be looking at them as people we 
can try to restore through the treatment system or through 
collaboration, drug courts being an excellent model. There are 
other models of probation with what the criminal justice is 
trying to do is not punish people forever, put them away in a 
cell forever, but instead, try to restore them to health by 
working with the treatment system.
    Mr. Clay. Mr. Baum, is your philosophy in line with what we 
just heard from Mr. Humphreys?
    Mr. Baum. Well, the way I would put it, Congressman, is 
that every case is different. And in the Federal system, we see 
primarily significant drug traffickers and the violent 
criminals. And if you're a significant drug trafficker or a 
violent criminal, you run a network that's bringing illicit 
narcotics into our country, breaking our laws, and putting the 
health of our citizens at risk, I think you do deserve a 
significant sentence. But I also agree that we need to sort 
carefully the people that come into the system. And there are 
many people whose only offense is buying and using drugs. And 
those people that are drug dependent and not involved in 
running significant trafficking organizations, those people 
absolutely should be diverted into treatment, into drug courts, 
into alternative sentences.
    So I think that sometimes folks lose track that the Federal 
system is really charged with the trafficking issues, the major 
criminal groups. It's really State and local governments that 
are responsible for dealing with local drug dealing and drug 
users that may commit mild/minor offenses. So we really have to 
learn to tell the difference and treat differently those with 
different criminal records and criminal backgrounds.
    Mr. Clay. I thank you for your response.
    And I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Wisconsin.
    Mr. Grothman. Thank you.
    It's been a while since I traveled outside the country, I 
think about 14 years. But the last time I went outside the 
country, I went to Taiwan, and they don't seem to have this 
huge drug problem that we do in this country. And at least in 
my State, I believe, I might be wrong, but I believe more 
people die of opiate abuse every year than murders and car 
accidents combined. Certainly, in most counties that's true. 
It's just horrible.
    Are any of you familiar with the type of sentencing that we 
have in countries which don't have these--like Taiwan, that 
don't have these huge numbers of people dying from opiate 
abuse?
    Mr. Baum, do you know what they do in other countries?
    Mr. Baum. Yeah. I think, you know, because of the 
incredible overprescribing we've had in this country for two 
decades, our problem is like no other. Canada is experiencing 
some of the similar problems that we have, but there's no other 
country that hands out these dangerous, addictive narcotic 
analgesics the way we do.
    Mr. Grothman. There's no question. For years--I'll have to 
write books about the horrible things our medical professionals 
did the last 15 years. I'm told it's getting better. But does 
anybody know, if you are caught with enough heroin, that you're 
caught with heroin in other countries that don't have these 
problems, what type of prison sentences are handed out?
    Mr. Baum. The nations in Asia tend to have very strict 
penalties and also very strong messaging about drug use. The 
U.S. problem is different. And I would simply say, in the U.S., 
we need to get back, there's a lot we need to do on the 
prescription drug problem but also on prevention, because we 
need to get a very strong and consistent message out to our 
youth about the incredible risk they face when using drugs. 
Especially with fentanyl contaminating our drug supply, drug 
use is a very risky behavior, and we really need to prevent and 
delay--delay and prevent, if we can, initiation of drug use, 
especially for people, our young people, where they're still 
growing, their body is still growing. It's very risky behavior 
for young people.
    Mr. Grothman. Okay. We have four people here. Does anybody 
know what type of drug sentences are handed out in countries 
like Taiwan that don't have an opiate--big opiate problem? 
Nobody knows? Nobody has checked into this?
    Mr. Humphreys. I have certainly been to Taiwan and other 
countries like it. They have very, very tough criminal justice 
sentencing.
    Mr. Grothman. Well, both you and Mr. Baum said it's very, 
very tough. What does very, very tough mean? If you----
    Mr. Humphreys. The death penalty for dealers, even for low-
level dealers. There's places where even with possession, a 
small amount of possession, you can end up doing a really long 
time in prison. But, of course, we have put an awful lot of 
people in prison in this country. It's not as if we haven't 
tried that route. And I think we are different than those more 
cohesive, smaller societies, more freedom-loving society, a 
more capitalistic society, and also a healthcare system that is 
out of control on the prescriptions.
    Mr. Grothman. I'm against capital punishment across the 
board. But just interesting how other countries deal with it.
    Mr. Humphreys, are all people who use opiates or maybe wind 
up dying of opiates, are they all addicts?
    Mr. Humphreys. No, sir, they are not. These are valuable 
medications, when used properly and safely, that people use 
them, benefit from them, and then do not get addicted. It is 
not everybody.
    Mr. Grothman. What percentage of people who die of opiate 
abuse do you think are addicts?
    Mr. Humphreys. Of the people who die of abuse, I would say 
most of them are. There's occasionally people who have 
essentially, if I can say, like an accidental exposure, like a 
kid goes to a party and gets an Oxy they've never had before, 
has it with a lot of alcohol and dies. But most of the people 
who are showing up in overdose statistics have been using for 
awhile and are addicted.
    Mr. Grothman. I'll tell you what goes on in my area, and 
I'd like you to comment on it. In my area, we are told that the 
opiates are frequently purchased from a dealer in Milwaukee 
County, and then the opiates are brought back to Fond du Lac 
County or Ozaukee County or more rural points north. And the 
thing that frustrates local law enforcement is they feel, 
because Milwaukee County is kind of a liberal county, that, 
well, if they--if people are caught selling drugs in these more 
northern counties where there are, you know, a little stricter 
judges, they are strongly deterred from selling drugs again. 
But in Milwaukee County and more liberal counties, they get a 
slap on the wrist. And I was under the impression that maybe if 
we forced liberal counties to put mandatory minimums on, maybe 
it would deter some of these sellers that right now only get a 
slap on the wrist. Would you comment on that?
    Mr. Humphreys. Yeah. I mean, low-level dealers and many 
people who have drug problems----
    Mr. Grothman. Not necessarily low level, but go ahead.
    Mr. Humphreys. Okay. Yeah. I'd be happy to talk to you at 
length more than we have time here for, Congressman, but I 
don't believe that the really long sentences motivate that 
population because they don't think that way. They're not 
thinking about what they're going to do in 11 years. They're 
thinking pretty close. And so I don't think when you threaten 
from 10 to 20, that that motivates them. That's what I've seen.
    Mr. Grothman. I think that's an insulting thing to say, but 
I've gone over my time.
    Chairman Gowdy. The gentleman yields back.
    The gentleman from Massachusetts is recognized.
    Mr. Lynch. Thank you, Mr. Chairman, and thank you and the 
ranking member for holding this important hearing. And I want 
to thank the members in the panel for helping the committee 
with its work.
    Director Baum, back in 1993 till about 2009, your position 
as director, even though you're acting director, Director of 
the Office of National Drug Control Policy was a Cabinet-level 
position. I have joined with Mr. Rothfus and a large group of 
Democrats and Republicans writing to President Trump asking him 
to reestablish the Director of the Office of National Drug 
Control Policy as a Cabinet-level position.
    Could you tell the committee what that might mean if we 
were to reelevate that position?
    Mr. Baum. Thank you, Congressman, for the question. You 
know, in my service at ONDCP, both under the Bill Clinton 
administration and the George W. Bush administration, I watched 
Barry McCaffrey and John Walters operate. And I see that being 
in the Cabinet, being at the Cabinet meetings, and being able 
to engage as an equal with the other Secretaries was something 
that's valuable.
    I have to say, in the Trump administration, I've had strong 
support from the Cabinet. I've met with the Cabinet Secretaries 
and engaged with them frequently. So that political support is 
very strong in the Trump administration.
    But I do understand your point that it can be an asset to 
be formally included in the President's Cabinet.
    Mr. Lynch. Right. I want to go back to the marijuana 
question. So in my State, by referendum, the citizens of 
Massachusetts just voted to approve of recreational marijuana 
in my State. Now, my personal experience has been--I opposed to 
that, but we lost decisively on the ballot question. I just 
cannot see how flooding the streets with another drug is going 
to help.
    And part of my work as a Member of Congress has been to 
establish a residential treatment facility for young people, 
because the age at which these young people have been lured 
into OxyContin and then heroin and fentanyl is just--it's a 
horrific situation. And I've got probably 500--500 kids that 
have died of a drug overdose.
    And, Mr. Flattery, I'm totally sorry for your loss, and I 
certainly empathize with your position, and I'm thankful for 
your courage to come forward, you and your wife, with your 
son's situation.
    But I could find no really decisive studies on the effects 
of marijuana on the developing brain. You know, and obviously, 
when you--when you put something out--when you legalize 
recreational marijuana, society is putting this imprimatur of 
acceptance and implied suitability so that people are going to 
look like, hey, this is something that's not harmful, and I can 
engage in that.
    Can you talk a little bit about what that might mean for 
the general population?
    Mr. Baum. Thank you, Congressman. Let me say a few words, 
and then maybe Dr. Humphreys has a few words as well. You know, 
States have a lot of options in how they manage something like 
marijuana. And I think sometimes that we're looking at this 
sort of all-in-or-all-out kind of policy. And if States want to 
alter and have a less severe sentencing----
    Mr. Lynch. And I totally support that. Believe me, I don't 
think people should be thrown in jail for smoking marijuana. 
That doesn't happen.
    Mr. Baum. And that's my point. So States have options, but 
the idea that it's going to be so legal and so accessible to 
young people really does put themselves at risk.
    And, you know, there's a lot of research already on the 
harmful effects, physical and cognitive, caused by marijuana. 
And this research was done on earlier marijuana before we had 
these incredible high levels of THC, which we have now. The new 
forms of marijuana, shatter and wax and the liquids that are 
being vaped, these are very, very powerful substances. The 
super powered marijuana has not been tested.
    So I just--you know, as a parent, I just don't want my kids 
and other kids in this country at a young age being exposed to 
these substances. And I think we really got to think about, 
when we make these policy decisions, what's best for your 
youth.
    Mr. Lynch. Mr. Humphreys, you want to add? Dr. Humphreys?
    Mr. Humphreys. Yes, sir, I would. Marijuana is way more 
potent than it's been in previous eras, and people are using it 
every single day much more. So I'm quite worried about the 
public health impact. I think it's being underestimated how 
destructive this drug can be.
    And I'm also worried about the fact we're having a 
commercial industry promoting the product with very little 
regulation. It's kind of like tobacco industry's fantasy of 
what they always wanted, the marijuana industry is getting. I 
think the regulatory framework in these States needs to be 
much, much stronger, otherwise we're going to regret it deeply.
    Mr. Lynch. Thank you.
    I yield back, Mr. Chairman.
    Chairman Gowdy. The gentleman from Massachusetts yields 
back.
    The gentlelady from Florida is recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you 
for this very important hearing today.
    And thank you as well to our witnesses, particularly Mr. 
and Mrs. Flattery. We thank you for introducing us to Kevin 
today.
    As a former police chief, we in Florida are all too 
familiar with the devastation drug addiction inflicts on 
families and on every community it touches. First, we battle 
pill mills and--but now we see ourselves--last year, we lost 14 
persons a day, higher than even during the height of the pill 
mill crisis. In Orange County, the sheriff's office responded 
to more than 160 overdoses in the first 3 months of this year. 
Is this an epidemic? I would say yes, it is.
    Too often, the criminal justice system, as we've heard many 
times today, serves as the initial stop for individuals 
suffering from addiction disease. The Orange County jail has 
become the de facto and is called the largest drug treatment 
center and mental health provider in the region.
    In the Obama administration, we saw a shift to a public 
health model of response to the opioid epidemic and an increase 
focused on prevention, treatment, and recovery efforts.
    Dr. Humphreys, can you just give us some examples of 
prevention treatment and recovery efforts that were expanded 
under the Obama administration and why these efforts are so 
important in fighting the drug addiction crisis?
    Mr. Humphreys. Thank you for that question. I'd be very 
happy to do so. We saw addiction as a health problem, and, 
therefore, we tried to build health services directly into the 
mainstream healthcare system.
    Historically, addiction treatment has been funded by, you 
know, a separate block grant away from all of medicine. That 
makes the services uncoordinated. It makes them hard to access. 
So that is why--wanting to break away from that is why the 
Affordable Care Act says that taking care of substance abuse 
disorders is an essential healthcare benefit. You go to the 
same healthcare system. It's reimbursed the same way. It makes 
it easier for people to access. They don't feel as stigmatized. 
They can talk to their regular doctor, and the doctor can get 
paid for intervening with it.
    Same thing in the Medicaid expansion. Covering substance 
abuse disorder as a core service, not an add-on, not a blocker, 
and not a special set aside, but a core service. Because, you 
know, this is a problem that is very prevalent among Medicaid 
enrollees. It's a health problem that needs to be addressed, 
and so we try to build everything in.
    And if we do that in Washington, our belief, and my belief, 
was that that makes it much more likely on the ground in your 
community and everyone else's community that the locals will 
work together too. They'll know who each other are and they'll 
work together to bring people back to health.
    Mrs. Demings. Thank you so much.
    And, Mr. Flattery, earlier, we were talking about some of 
the creativity from local jurisdictions, and you mentioned one 
of the barriers to that is just the need to reengineer, I 
believe you said, treatment programs. I think we ran out of 
time. I'd love to hear a little bit more of your thoughts on 
that.
    Mr. Flattery. Well, I believe that the treatment, the world 
of treatment, especially for opioid substance use disorder is 
entirely broken. In many rural areas of the country, there is 
no treatment at all. In those counties, particularly in my 
newly adopted State that have some treatment, there are limits. 
There are cost issues. There are insurance coverage issues. 
There's actual stigma from those in recovery who are judging 
others who are choosing medication-assisted treatment. There 
are prescribers who are charging cash on the barrelhead only 
and sometimes $500 to treat someone with buprenorphine.
    There are manufacturers of alternative medication-assisted 
treatment who are in every State capital lobbying and making 
statements about competitor medication-assisted treatment. All 
of those are creating barriers to people getting evidence-based 
treatment.
    And I previously had discussed some 30-day residential 
treatment programs who, I believe, are often treating people as 
customers and not patients, and they're detoxing and releasing 
people to the wild in a short-burst attempt. A 30-day attempt 
is woefully inadequate when we're dealing with a chronic long-
term condition.
    So that's kind of what I--those are--there are a number of 
issues surrounding why our treatment system just does not work, 
and we need--we need to reengineer it with some of the 
enthusiasm that we're using today to discuss changing our 
Nation's healthcare system.
    Mrs. Demings. All right. Thank you so very much.
    Mr. Chairman, I yield back.
    Chairman Gowdy. The gentlelady yields back.
    The gentlelady from the Virgin Islands is recognized.
    Ms. Plaskett. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    The High Intensity Drug Trafficking Area program, or HIDTA, 
was created to provide assistance to Federal, State, local, and 
Tribal law enforcement agencies operating in areas determined 
to be critical drug trafficking regions in the United States. 
There are currently 28 HIDTA regions, which include almost 66 
percent of the U.S. population in 49 States, the District of 
Columbia, Puerto Rico, and the U.S. Virgin Islands. To date, 
these regional HIDTAs have steadfastly worked with local law 
enforcement to coordinate efforts and share intelligence.
    Mr. Baum, do you consider the work of HIDTA integral to the 
advancement of the mission of the Office of National Drug 
Control Policy?
    Mr. Baum. Thank you, Congresswoman, for the question. We 
are extremely proud of the HIDTA program. They are working 
every day in a partnership, Federal, State, local, 
collaborating on looking at and studying the problem they face 
in each of these regions and deciding together on the 
priorities.
    I think it's important to make the point that ONDCP, we 
provide grants for the programs, but we don't tell them what to 
focus on.
    Ms. Plaskett. Right.
    Mr. Baum. It's a regionally focused program, and it's 
designed to bring people together and coordinate Federal, 
State, and local law enforcements, and they're producing very 
dramatic results. Actually, if you look at the amount of cash 
and assets they're seizing, they more than pay for themselves 
three times over, 3-1/2 times over.
    So I thank the Congress for their great support of the 
HIDTA program. It's really getting a great return on the 
dollar. They are really making a difference in our communities.
    Ms. Plaskett. As you talked about success, HIDTA 
initiatives identified over 8,800 drug trafficking 
organizations, disrupting or dismantling over 2,700 of them, 
and seizing over $895 million in cash and noncash assets from 
drug traffickers in 2015. And as you said, these were 
organizations working with local law enforcement who identify 
the threats specific to those areas, identify how to go after 
them, how to disrupt and to dismantle those activities in the 
areas in which they are working.
    I've seen the work that they're doing in the Virgin 
Islands. And as a former narcotics prosector, I'm just 
completely very--however I can be supportive of the work that 
they're doing in those areas is really important.
    But in the area in which I represent the U.S. Virgin 
Islands, and Puerto Rico, where HIDTA works together, they 
cover--that area is recognized by ONDCP in 2013 for its 
outstanding work in disrupting drug trafficking networks 
through the Caribbean destined for the mainland USA.
    Mr. Baum, would you agree that the HIDTA region that covers 
the U.S. Virgin Islands and Puerto Rico is integral to 
combating transit routes for drugs from South America into the 
U.S. mainland?
    Mr. Baum. Yes, absolutely, Congressman. It's a very 
important area, and it is sort of in the neighborhood of the 
world that faces a lot of drug challenges, and so we're very 
pleased to have the HIDTA there, and we know it's a significant 
threat that you face in the Virgin Islands.
    Ms. Plaskett. Yes. You know, we are--right now, the U.S. 
Virgin Islands, according to the FBI in 2016, has the highest 
murder rate per capita in the country, higher than any other 
State, commonwealth, or territory. And we know that most of it 
is due to drug trafficking. Most of the drugs are not used by 
Virgin Islanders. The Virgin Islands was purchased because of 
our geographic importance, and drug dealers are smart people. 
They recognize that there's an important route there as well 
and are using the islands for that.
    Nonetheless, the House today will likely appropriate over 
$1-1/2 billion to begin building a wall on our southern border, 
and meanwhile, the Virgin Islands and places like me are facing 
enormous murder rates, enormous disruption to our communities 
because of this drug trafficking, because of what's happening 
there. And I believe that a lot of that money, those billions 
of dollars that are being spent on that wall and appropriated 
there, could be better used to wall ourself from the drug 
trafficking that is coming through this country.
    Mr. Baum, is there any additional moneys that you think 
that HIDTA would need to be effective in its war against drugs?
    Mr. Baum. Congresswoman, the President in his fiscal year 
2018 budget request asked for $246 million for the HIDTA 
program. That's the largest request ever from an 
administration. And so we're hoping to get Congress' support 
for that.
    And on the border security issue, border security is very 
important. We face a lot of challenges, and so there is a need 
for infrastructure and officials. And we're really pleased at 
the incredible leadership of Secretary Kelly in getting CBP and 
the DHS folks back engaged and combating drugs, so there's a 
lot that has to be done. Certainly, we think HIDTA is an 
important part of the drug enforcement solution.
    Ms. Plaskett. Thank you. I just wish Mexico would pay for 
it instead.
    I yield back.
    Chairman Gowdy. The gentlelady from the Virgin Islands 
yields back.
    I'll recognize myself for 5 minutes of questioning.
    Dr. Humphreys, it is currently against the law to prescribe 
controlled substances outside the course of a professional 
medical practice. It's a pretty arcane statute. It's not used 
all that often. But it strikes me that until you control that 
group that is uniquely empowered to prescribe controlled 
substances--and I appreciate the fact that Director Baum thinks 
it's an education issue. I don't know that many dumb doctors. I 
don't know that many--I don't think it's an education issue as 
much as it is a money issue.
    So how do we capture the attention of those uniquely 
situated people in our culture who have the authority to write 
controlled substance prescriptions?
    Mr. Humphreys. Thank you for that question, Mr. Chairman. I 
divide doctors up as follows: The biggest group of doctors are 
good people who do the right thing, and they need to be left 
alone. The second biggest group are good doctors who do the 
wrong thing, and they need education and training.
    There is a third group. It is a small group. It's probably 
less than 1 percent of physicians who are not good people, and 
they do the wrong thing knowingly. And we saw this, my time at 
ONDCP in Florida, a massive concentration of people giving out 
huge quantities of OxyContin. And I think at that point, 
they're no different than any other drug trafficker. The fact 
that they're an M.D. is irrelevant. They know what they're 
doing. They're being harmful, and that's why we have law 
enforcement to go after them, and I'm all for them doing that.
    Chairman Gowdy. Well, I know we do, and we certainly used 
to. It was phentermine and fenfluramine back when I was at the 
DA's office, but DA diversion is not as active. Unless you know 
something I don't know, they're not as active as they once 
were. So I get that it's hard to go after doctors.
    And just so the record's clear, my dad's a physician. I 
actually like doctors, but they are uniquely empowered in our 
culture. Gerry Connolly can't write a prescription for an 
antibiotic or a controlled substance. Doctors can. And you can 
be in this specialty but write an analgesic prescription.
    So I'm with you. I appreciate the deference you show to 
physicians that it's an education, and I do think the 
overwhelming majority want to do the right thing for the right 
reasons. But there's a lot of money in this particular realm. 
And until there are prosecutions for physicians who prescribe 
outside the course of a professional medical--and what I mean 
by that, just so nobody thinks I'm getting too complicated, 
writing a prescription on a cocktail napkin at a bar for 
someone you just met that you've never done any diagnostic test 
on, you just happen to take his or her word, I like my chances 
in front of a jury of that being outside the course of a 
professional medical practice.
    So, Mr. Baum, as you write your plan, it'd be great if you 
could address DEA diversion and whether or not they're being 
plussed up. I know it's tough to go after doctors. Juries are 
sympathetic with them, but they are uniquely positioned in our 
culture, and somehow or another we've got to address it.
    Dr. Humphreys, let me ask you this: You mentioned drug 
court a couple of times. Do you have a position or is there 
research that indicates whether preadjudication drug courts or 
postadjudication drug courts work better?
    Mr. Humphreys. I'm not aware of research that proves that 
point, because those populations are really different kinds of 
people, typically, the people who are given the option early 
versus later. I do know that both--both drug courts as well as 
other models that have been promulgated, HOPE Probation is one 
that now the Federal Government supports, 24/7 Sobriety on the 
alcohol side where you use the court as a mechanism to enforce 
abstinence with regular checks and treatment backup as needed 
all show, you know, very good outcomes. We should be doing 
those much more. By good outcomes I mean you get the trifecta, 
the public is safer as the person is held accountable, 
substance abuse goes down, and then incarceration goes down.
    Chairman Gowdy. Well, I want you to help me with something, 
if you can. And I ask this respectfully. As you travel, if 
you're ever invited to address a group of public defenders or 
criminal defense attorneys, oftentimes they will refuse the 
offer of drug court because probation is easier. It is not 
better for their client, but it's easier. So we've got to kind 
of reconfigure what is in the best interest of the client. 
Remaining addicted but just having a shorter period of 
probation is not in the best interest of the client, and 
they'll believe you and they won't believe an old prosecutor.
    So in my remaining time, Director Baum, in case my mom is 
watching, I want to be really clear, I'm not advocating for the 
legalization of marijuana. I want to be very, very clear about 
that. However, I don't understand why it's a Schedule I. It's 
certainly not treated as an inherently dangerous substance for 
which there is no medicinal value. It takes a tractor-trailer 
full of marijuana to even trigger a mandatory minimum under our 
drug laws.
    So is there any appetite for researching whether or not it 
should remain a Schedule I drug?
    Mr. Baum. Congressman, the administration doesn't have a 
position on that, but I'm happy to dialogue with your office. 
And let me just briefly say that we strongly support research 
on medical use of marijuana. And if there are obstacles that we 
see that prevent good research, we want to address those 
obstacles. Because if there are component elements of marijuana 
that could be put through the FDA process and turn into 
medicines that could help people in this country, we want to do 
that. So we do think there's a potential and we support 
research on the subject.
    Chairman Gowdy. Well, just so everyone's clear, 
methamphetamine is schedule what?
    Mr. Baum. I believe it's Schedule II.
    Chairman Gowdy. Cocaine is schedule what?
    Mr. Baum. Also II.
    Chairman Gowdy. Cocaine base is schedule what?
    Mr. Baum. A----
    Chairman Gowdy. II. So it is scheduled lower than 
marijuana. And, again, you can schedule something and still not 
have it scheduled as a I? And I would encourage the powers that 
be, whoever you need to consult with in the administration, to 
at least explore whether or not it's scheduled correctly 
without being perceived as advocating for legalization.
    Mr. Baum. Understood.
    Chairman Gowdy. With that, Mr. Connolly, I want to give you 
a chance to--I'm reluctant to say whatever you want, but I'm 
going to give you a chance to conclude.
    Mr. Connolly. Well, I thank my friend. And I actually want 
to follow up, if I may, on what you just asked.
    So the point being made here in some ways, Mr. Baum, is if 
you--not you personally. If the government, Federal Government, 
on this subject, marijuana and how dangerous it is, has no 
credibility because of the lack of serious empirical work, it 
threatens our whole drug policy's credibility. And you have 
seen this happen in marijuana in the States. They're making 
decisions. Ms. Norton talked about eight States, but there are 
over 25 States that have in some fashion, including my home 
State of Virginia, liberalized their laws for medical reasons 
all the way to recreational reasons.
    I think you'd have to confess to the chairman's point, 
there was no empirical evidence to justify putting marijuana 50 
years ago as a Schedule I drug. Who did that empirical 
evidence?
    Mr. Baum. Sir, could you repeat that? Who did what? Who 
made it schedule----
    Mr. Connolly. There was no--I am asserting, and you can 
feel free to try to contradict, there was, in fact, no 
empirical evidence to justify putting marijuana ahead of the 
drugs the chairman just listed as a Schedule I drug 50 years 
ago. And I would--you brought up the need to have empirical 
research before we start rushing pill mill to approve it for 
medical purposes, and I agree with you. But here's the problem: 
As I said in my opening statement, only one Federal entity, 
NIDA, controls marijuana for legal purposes for 
experimentation, testing, and the like, research. And NIDA's 
mission is all about proving the harms of something. They've 
priority determined the outcome research. Nobody thinks NIDA is 
an objective neutral place to go to look at the good, the bad, 
and the indifferent about marijuana. It doesn't have that 
credibility.
    So if we're going to do what you suggest, we need to have a 
different entity with credibility where we're looking at 
objective evidence and science, and then we can determine, 
well, where does marijuana work?
    Mr. Humphreys made the point that there's a more lethal or 
stronger, more fortified versions of marijuana coming out that 
concern us. But we put a lot of people in jail, and we've 
treated this like it's more dangerous than cocaine and the 
other substances the chairman--and it's had huge consequences 
based on very little scientific evidence.
    I'm not arguing for the legalization either. I agree with 
my friend from South Carolina, I'm not going there, but neither 
can I justify the current policy of treating it as the world's 
most dangerous drug with this classification.
    You can feel free to respond, and I'm done.
    Mr. Baum. Congressman, I understand the point that you're 
making. I would love to go with you in your district to talk to 
police--police chiefs and sheriffs. I think in reality, on the 
street, police, sheriffs, they don't treat marijuana the way 
they treat heroin and fentanyl. So I think in practice, there 
is a prioritization of the most deadly drug threats.
    Chairman Gowdy. I think--I actually think that's his point, 
is that law enforcement doesn't, our sentencing scheme does 
not. Methamphetamine and marijuana are not treated the same 
from a sentencing standpoint, but yet marijuana is considered 
to be inherently dangerous with no medicinal value, therefore, 
a Schedule I.
    And it would just be helpful, again, to Mr. Connolly's 
point, for us to have some consistency, or at least be able to 
explain why certain drugs are Schedule I and others are not. 
And, you know, we can save that for another day. And, again, 
that's coming from two people that are not advocating for the 
legalization, just for some common sense in how it's scheduled.
    On behalf of all the members, I want to thank all of our 
witnesses for your expertise.
    Mr. and Mrs. Flattery, in your case, your very tragically 
earned expertise in this area. And I cannot imagine how painful 
it is. Any and every parent--and you don't have to be a parent 
to appreciate how difficult what you have done today is. And I 
salute you for your advocacy so other parents do not have to 
live through what you and your wife have lived through.
    I want to thank all the witnesses for your collegiality 
with one another and your comity with one another and with the 
committee.
    And with that, if there's no further business--thank you, 
Mr. Connolly--without objection, the committee stands 
adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
               
 
                                 [all]




</pre></body></html>
